No. 19-867
In the

Supreme Court of the United States
__________________

WEXFORD HEALTH, ET AL.,
Petitioners,
v.
KAREEM GARRETT,
__________________

Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit

__________________

BRIEF IN OPPOSITION
__________________
STUART T. STEINBERG
CORY A. WARD
JUSTIN M. ROMEO
NOAH S. BECKER
DECHERT LLP
2929 Arch Street
Philadelphia, PA 19104

MICHAEL H. MCGINLEY
Counsel of Record
DECHERT LLP
1900 K Street, NW
Washington, DC 20006
(202) 261-3300
Michael.McGinley@dechert.com

Counsel for Respondent

March 11, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTION PRESENTED
The Prison Litigation Reform Act (“PLRA”) provides
that “[n]o action shall be brought with respect to prison
conditions . . . by a prisoner confined in any jail, prison,
or other correctional facility until such administrative
remedies as are available are exhausted.” 42 U.S.C.
§ 1997e(a). Petitioners conceded below that the
exhaustion requirement does not apply to former
prisoners who have been released from incarceration.
Respondent filed his initial complaint before fully
exhausting his administrative remedies. While the
action was pending, he was released from prison.
Respondent filed an amended and supplemental
complaint pursuant to Federal Rule of Civil Procedure
15, after his claims were fully exhausted and he had
been released. This Court has long held that a party’s
status at the time of amendment and not at the time of
the original filing determines whether a statutory
precondition to suit has been satisfied. Mathews v.
Diaz, 426 U.S. 67, 75, 75 n.8 (1976); Missouri, K. & T.
Ry. Co. v. Wulf, 226 U.S. 570, 576 (1913). Following
those precedents, the lower court held that
Respondent’s non-prisoner status when he filed his
amended and supplemental complaint controlled and
thus he was no longer subject to the exhaustion
requirement.
The question presented is:
Whether a former prisoner can file an amended or
supplemental complaint under Rule 15 after his release
from prison to cure an initial filing defect under the
PLRA’s exhaustion provision.

ii
TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . i
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . iii
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 5
A. The Prison Litigation Reform Act . . . . . . . 5
B. Rule 15 of the Federal Rules of Civil
Procedure . . . . . . . . . . . . . . . . . . . . . . . . . . 6
C. Factual Background. . . . . . . . . . . . . . . . . . 8
D. The Decision Below . . . . . . . . . . . . . . . . . 11
REASONS FOR DENYING THE PETITION. . . . . 13
I.

The Third Circuit Faithfully Applied The
PLRA’s Text And This Court’s Precedents . . 14

II.

The Split Alleged By Petitioners Is
Illusory . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

III.

This Case Is A Poor Vehicle For Deciding The
Question Presented . . . . . . . . . . . . . . . . . . . . 27

IV.

Petitioners’ Policy Arguments Are Overblown
And Irrelevant . . . . . . . . . . . . . . . . . . . . . . . . 30

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

iii
TABLE OF AUTHORITIES
CASES
14 Penn Plaza LLC v. Pyett,
556 U.S. 247 (2009). . . . . . . . . . . . . . . . . . . . . . . 28
Adarand Constructors, Inc. v. Mineta,
534 U.S. 103 (2001). . . . . . . . . . . . . . . . . . . . . . . 28
Ahmed v. Dragovich,
297 F.3d 201 (3d Cir. 2002) . . . . . . . . . . . . . . . . 15
Bargher v. White,
928 F.3d 439 (5th Cir. 2019). . . . . . . . 6, 15, 23, 25
Bell v. Konteh,
450 F.3d 651 (6th Cir. 2006). . . . . . . . . . . . . . . . . 6
Booth v. Churner,
532 U.S. 731 (2001). . . . . . . . . . . . . . . . . . . . . . . 15
Cofield v. Bowser,
247 F. App’x 413 (4th Cir. 2007) . . . . . . . . . . . . 15
Cox v. Mayer,
332 F.3d 422 (6th Cir. 2003). . . . . . . . . . 24, 25, 26
Dole v. Arco Chem. Co.,
921 F.2d 484 (3d Cir. 1990) . . . . . . . . . . . . . . . . . 6
Fluker v. Cty. of Kankakee,
741 F.3d 787 (7th Cir. 2013). . . . . . . . . . . . . . . . . 6
Gateway KGMP Dev., Inc. v. Tecumseh Prods.,
731 F.3d 586 (6th Cir. 2013). . . . . . . . . . . . . . . . . 8
Greig v. Goord,
169 F.3d 165 (2d Cir. 1999) . . . . . . . . . . . . . . 5, 15

iv
Harris v. Garner,
216 F.3d 970 (11th Cir. 2000). . . . . . . . . . . . 24, 25
Jackson v. Fong,
870 F.3d 928 (9th Cir. 2017). . . . . . . . . . . . . 23, 32
Jones v. Bock,
549 U.S. 199 (2007). . . . . . . . . . . . . . . . . . . passim
Jones v. Unknown D.O.C. Bus Driver &
Transportation Crew,
944 F.3d 478 (3d Cir. 2019) . . . . . . . . . . . . . . . . 10
Kerr v. Puckett,
138 F.3d 321 (7th Cir. 1998). . . . . . . . . . . . . . . . 15
Kontrick v. Ryan,
540 U.S. 443 (2004). . . . . . . . . . . . . . . . . . . . . . . . 6
LaFountain v. Harry,
716 F.3d 944 (6th Cir. 2013). . . . . . . . . . . . . . . . 26
Lesene v. Doe,
712 F.3d 584 (D.C. Cir. 2013) . . . . . . . . . . . . . . . 15
Mathews v. Diaz,
426 U.S. 67 (1976). . . . . . . . . . . . . . . . . . . . 3, 8, 21
Mattox v. Edelman,
851 F.3d 583 (6th Cir. 2017). . . . . . . . . . . . . . . . 26
May v. Segovia,
929 F.3d 1223 (10th Cir. 2019). . . . . . . . . . . 26, 27
McGore v. Wrigglesworth,
114 F.3d 601 (6th Cir. 1997). . . . . . . . . . . . . . . . 26

v
McNeil v. United States,
508 U.S. 106 (1993). . . . . . . . . . . . . . . . . . . . . . . 21
Missouri, K. & T. Ry. Co. v. Wulf,
226 U.S. 570 (1913). . . . . . . . . . . . . . . . 3, 7, 12, 21
Nerness v. Johnson,
401 F.3d 874 (8th Cir. 2005). . . . . . . . . . . . . . . . 15
Norton v. City of Marietta,
432 F.3d 1145 (10th Cir. 2005). . . . . . . . . . . . . . 15
Pintando v. Miami-Dade Hous. Agency,
501 F.3d 1241 (11th Cir. 2007). . . . . . . . . . . . . . . 8
Porter v. Nussle,
534 U.S. 516 (2002). . . . . . . . . . . . . . . . . . . . . . . 15
Rhodes v. Robinson,
621 F.3d 1002 (9th Cir. 2010). . . . . . . . . . . . . . . . 7
Robinson v. Page,
170 F.3d 747 (9th Cir. 1999). . . . . . . . . . . . . 17, 18
Rockwell Int’l Corp. v. United States,
549 U.S. 457 (2007). . . . . . . . . . . . . . . . . . . . . . . . 8
Ross v. Blake,
136 S. Ct. 1850 (2016). . . . . . . . . . . . . . . . 5, 14, 31
Smith v. Terry,
491 F. App’x 81 (11th Cir. 2012) . . . . . . . . . 24, 25
Sprietsma v. Mercury Marine,
537 U.S. 51 (2002). . . . . . . . . . . . . . . . . . . . . . . . 29
T Mobile Ne. LLC v. City of Wilmington,
913 F.3d 311 (3d Cir. 2019) . . . . . . . . . . . . . . 8, 19

vi
Talamantes v. Leyva,
575 F.3d 1021 (9th Cir. 2009). . . . . . . . . . . . . . . 15
W. Run Student Hous. Assocs., LLC v. Huntington
Nat. Bank, 712 F.3d 165 (3d Cir. 2013) . . . . . . . . 7
Williams v. Henagan,
595 F.3d 610 (5th Cir. 2010). . . . . . . . . . . . . . . . 25
Wilson v. Westinghouse Elec. Corp.,
838 F.2d 286 (8th Cir. 1988). . . . . . . . . . . . . . 7, 19
Woodford v. Ngo,
548 U.S. 81 (2006). . . . . . . . . . . . . . . . . . . . . 14, 15
STATUTES
42 U.S.C. § 1983 . . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 8
42 U.S.C. § 1997e . . . . . . . . . . . . . . . . . . . 5, 13, 15, 24
RULES
Fed. R. Civ. P. 1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Fed. R. Civ. P. 8 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Fed. R. Civ. P. 15 . . . . . . . . . . . . . . . . . . . . . . . passim
OTHER AUTHORITIES
6 C. Wright & A. Miller, Federal Practice and
Procedure (3d ed. 2019) . . . . . . . . . . . . . . . 6, 7, 20
Rev. Stat. Sec. 954, Title 13 (1901) . . . . . . . . . . . . . . 7

1
INTRODUCTION
This Court should deny certiorari because the Third
Circuit’s decision faithfully applied this Court’s
precedents, there is no circuit split on the question
presented, and this is an especially poor vehicle for
deciding the issue. Rather than creating an “exception”
to this Court’s precedents, the Third Circuit applied
well-settled principles governing Rule 15 to the plain
text of the PLRA. Indeed, the crux of the Third
Circuit’s analysis was its application of this Court’s
decision in Jones v. Bock, 549 U.S. 199 (2007), which
held that the PLRA does not displace the normal
application of the Federal Rules absent clear statutory
text to the contrary. There is no arguable circuit split
on the question presented post-Bock. At the very least,
further percolation is warranted. Moreover, none of
Petitioners preserved any argument regarding Rule
15’s normal operation here, and five of the six
Petitioners expressly waived the question presented.
And, in all events, Petitioners’ arguments would have
made no practical difference in this case because, under
their own theory, Respondent could have cured any
exhaustion defect through the more cumbersome but
practically indistinguishable process of dismissing his
complaint and filing a new action.
Respondent Kareem Garrett filed this § 1983 action
pro se asserting claims for the denial of medical care.
He filed grievances related to his claims against
Petitioners-Defendants but his administrative
remedies were not fully exhausted until two months
after he filed his original complaint. Respondent was
released from prison while the action was pending and

2
with plenty of time left on the applicable two-year
statute of limitations. After his release, Respondent
filed an amended and supplemental complaint.
Notwithstanding that the PLRA’s administrative
exhaustion provision does not apply to released
prisoners and despite the fact that Respondent’s claims
against Petitioners were in any event fully exhausted
when he filed his operative amended and supplemental
complaint, the district court dismissed his claims for
failure to exhaust. On appeal, the United States Court
of Appeals for the Third Circuit reversed. The court
held that the PLRA’s exhaustion provision does not
displace the normal operation of Federal Rule of Civil
Procedure 15 and that under Rule 15 Respondent’s
non-prisoner status when he filed the operative new
complaint controlled and thus the initial filing defect
was cured because he was no longer subject to the
exhaustion requirement.
Petitioners’ complaints about the decision below do
not warrant review.
Petitioners consistently
mischaracterize the Third Circuit’s decision as creating
an “exception” to the PLRA’s exhaustion requirement.
But the court did no such thing. Instead, the Third
Circuit correctly recognized that the PLRA’s plain text
does not apply to released prisoners. Petitioners
themselves conceded that point below, and the Circuits
are unanimously in agreement on this point. Given
that Respondent could have simply filed a new action
upon his release free of the PLRA’s strictures, the issue
before the court was whether he could instead
accomplish the same result through Rule 15’s more
efficient mechanism for filing an amended or
supplemental complaint. In concluding that he could,

3
the court faithfully applied this Court’s decision in
Jones v. Bock, 549 U.S. 199 (2007), holding that the
PLRA does not generally displace the normal pleading
practices under the Federal Rules. And the court
faithfully applied this Court’s longstanding
jurisprudence holding the plaintiff’s status at the time
of amendment determines whether a statutory
precondition to suit applies. E.g., Mathews v. Diaz, 426
U.S. 67, 75, 75 n.8 (1976); Missouri, K. & T. Ry. Co. v.
Wulf, 226 U.S. 570, 576 (1913). Nothing about the
Third Circuit’s straightforward and well-reasoned
application of controlling precedent warrants review.
Petitioners’ attempt to fabricate a circuit split fares
no better. Since Bock, only two Courts of Appeals have
squarely decided the question presented and both held
that a released prisoner’s status at the time of
amendment is controlling. Relying on cases they never
cited below, Petitioners contend that three circuits
have gone the other way. But those cases are facially
off-point because they did not involve post-release
amendments. At the very least, more time is needed to
determine how the Courts of Appeals will resolve the
question presented in light of Jones v. Bock and
whether any split will ever emerge. Review now would
be premature.
In addition, this case is an especially poor vehicle
for deciding the question presented. At oral argument
before the Third Circuit, counsel for five of the six
Petitioners “absolutely agreed” that a Rule 15
amendment may be used to cure a failure to exhaust.
In making that concession, counsel answered the
question presented in Respondent’s favor. Moreover,

4
Petitioners all failed to respond to Respondent’s
arguments below regarding the normal operation of
Rule 15. Although the Pennsylvania Department of
Corrections parties now seek to challenge those
arguments, they never moved based on exhaustion at
all; instead, they argued for dismissal on different
grounds. Having failed to ever before make many of
the arguments they now present to this Court,
Petitioners (and their supporters) waived those
arguments. And, further undermining any basis for
review, those arguments would have made no practical
difference if they had been pressed below. Respondent
had fully exhausted his claims and had been released
from incarceration by the time he filed the operative
complaint. Under Petitioners’ own theory, he could
have voluntarily dismissed and refiled a new complaint
at that time. Instead, he pursued the much more
efficient route provided by Rule 15. If this Court is
inclined to grant review of the question presented, it
should do so in a case where the argument was fully
preserved and would have made a difference.
Finally, Petitioners’ bald policy arguments are both
overblown and irrelevant to this case. Respondent did
not circumvent the administrative grievance process,
but instead pursued and (eventually) exhausted all
available administrative remedies for the claims
presented in his original complaint. And there is no
gamesmanship on this record, because Respondent
could have simply filed a new lawsuit after his release
or after a prompt ruling on Petitioners’ motions to
dismiss for failure to exhaust. In light of those facts,
Petitioners’ policy arguments amount to little more
than the thinly veiled suggestion that the overriding

5
purpose of the PLRA was to make it harder for claims
regarding prison conditions to proceed. But that is
both incorrect and indistinguishable from the atextual
approach this Court rejected in Jones v. Bock.
STATEMENT OF THE CASE
A. The Prison Litigation Reform Act
The PLRA’s administrative exhaustion provision
states that “[n]o action shall be brought with respect to
prison conditions . . . by a prisoner confined in any jail,
prison, or other correctional facility until such
administrative remedies as are available are
exhausted.” 42 U.S.C. § 1997e(a). As with any statute,
the touchstone for construing the provision is the
statutory text. Ross v. Blake, 136 S. Ct. 1850, 1857
(2016). The Court has made clear that “adherence to
the PLRA’s text runs both ways: The same principle
applies regardless of whether it benefits the inmate or
the prison.” Id. at 1857 n.1.
The statute is limited in several key respects
relevant here. First, it applies only to “a prisoner
confined in any jail, prison, or other correctional
facility.” 42 U.S.C. § 1997e(a). A “prisoner” is defined
as “any person incarcerated or detained in any facility.”
Id. § 1997e(h). Accordingly, plaintiffs who “file prison
condition actions after release from confinement are no
longer ‘prisoners’ for purposes of § 1997e(a) and,
therefore, need not satisfy the exhaustion requirements
of this provision.” Greig v. Goord, 169 F.3d 165, 167
(2d Cir. 1999).
Second, the remedy when a prisoner prematurely
files claims before fully exhausting administrative

6
remedies is dismissal without prejudice of those claims.
See, e.g., Bargher v. White, 928 F.3d 439, 447 (5th Cir.
2019); Fluker v. Cty. of Kankakee, 741 F.3d 787, 791
(7th Cir. 2013); Bell v. Konteh, 450 F.3d 651, 653 n.4
(6th Cir. 2006) abrogated on other grounds by Jones v.
Bock, 549 U.S. 199 (2007). Dismissal without prejudice
“permits the litigant to refile if he exhausts or is
otherwise no longer barred by the PLRA requirements.”
Bargher, 928 F.3d at 447.
Third, in Jones v. Bock, the Court examined the
PLRA’s interplay with the Federal Rules of Civil
Procedure and held that the PLRA generally does not
displace normal pleading practices under the Federal
Rules. 549 U.S. at 212. Instead, any “departures”
must be “specified by the PLRA itself” while “silen[ce]”
is “strong evidence that the usual practice should be
followed.” Id. at 212, 214. And the Court strongly
cautioned that “courts should generally not depart from
the usual practice under the Federal Rules on the basis
of perceived policy concerns.” Id. at 212.
B. Rule 15 of the Federal Rules of Civil
Procedure
Rule 15 governs amended and supplemental
pleadings. Fed. R. Civ. P. 15. The Rule embodies a
“liberal amendment policy,” Kontrick v. Ryan, 540 U.S.
443, 459 (2004), which “ensures that a particular claim
will be decided on the merits rather than on
technicalities,” Dole v. Arco Chem. Co., 921 F.2d 484,
487 (3d Cir. 1990). See also 6 C. Wright & A. Miller,
Federal Practice and Procedure § 1474 (3d ed. 2019) (“A
liberal policy toward allowing amendments to correct
errors in the pleadings clearly is desirable and furthers

7
one of the basic objectives of the federal rules—the
determination of cases on their merits.”); Fed. R. Civ.
P. 1 (“[The Federal Rules of Civil Procedure] should be
construed, administered, and employed by the court
and the parties to secure the just, speedy, and
inexpensive determination of every action and
proceeding.”).
Under ordinary pleading rules, amended and
supplemental complaints supersede the original
complaint. See W. Run Student Hous. Assocs., LLC v.
Huntington Nat. Bank, 712 F.3d 165, 171-72 (3d Cir.
2013); Wilson v. Westinghouse Elec. Corp., 838 F.2d
286, 289-90 (8th Cir. 1988); Rhodes v. Robinson, 621
F.3d 1002, 1005-07 (9th Cir. 2010); 6 C. Wright & A.
Miller, Federal Practice and Procedure § 1476 (3d ed.
2019). This Court and the Courts of Appeals have
consistently held that a litigant’s status at the time of
amendment or supplementation—as opposed to the
time of an original complaint—determines whether a
statutory precondition to suit applies. The Court
established this principle over 100 years ago in a case
involving § 954, a precursor to Rule 15.1 Wulf, 226 U.S.
at 576 (holding that it was “clearly within” the
permissible scope of § 954 to allow a plaintiff to cure a
1

Compare Fed. R. Civ. P. 15(d) (“The court may, on just terms . . .
permit supplementation even though the original pleading is
defective in stating a claim.”) with Rev. Stat. Sec. 954, Title 13
(1901) (providing that a court “may at any time permit either of
the parties to amend any defect in the process or pleadings, upon
such conditions as it shall, in its discretion and by its rules,
prescribe”). See also 6 C. Wright & A. Miller, Federal Practice and
Procedure § 1471 n.11 (3d ed. 2019) (citing § 954 as one of the
factors allowing pre-Federal Rules courts to “follow a
comparatively liberal pleading amendment practice”).

8
defective complaint when she “indicated the [changed]
capacity in which [she] was to prosecute the action”).
And it has consistently applied the principle since. See
Diaz, 426 U.S. at 75, 75 n.8 (determining that a
plaintiff who failed to file a social security claim before
filing suit could submit a social security claim and then
cure using Rule 15(d)); Rockwell Int’l Corp. v. United
States, 549 U.S. 457, 473-74 (2007) (explaining that
when “a plaintiff files a complaint in federal court and
then voluntarily amends the complaint, courts look to
the amended complaint to determine jurisdiction”); see
also T Mobile Ne. LLC v. City of Wilmington, 913 F.3d
311, 330 (3d Cir. 2019); Gateway KGMP Dev., Inc. v.
Tecumseh Prods., 731 F.3d 586, 589 (6th Cir. 2013);
Pintando v. Miami-Dade Hous. Agency, 501 F.3d 1241,
1243-44 (11th Cir. 2007).
C. Factual Background
On February 14, 2014, Respondent Kareem Garrett
filed a pro se § 1983 complaint asserting claims for the
denial of medical care, arising out of events beginning
in January 2014, while he was incarcerated at a state
correctional institution in Pennsylvania. App. 4.
Respondent had filed several grievances related to the
conduct alleged in his § 1983 suit, but the face of the
complaint noted that the grievances were not yet
completely exhausted. App. 5. Eventually, those
grievances were fully exhausted on April 17, 2014.
App. 6.2
2

Petitioners Naji, Cutshall, Thornley, and Nagel conceded below
that Garrett “had properly exhausted the grievance process” by
April 17, 2014 and further conceded that had he “voluntarily
withdrawn his Complaint and refiled it a day later, [they] would

9
Respondent amended his complaint as of right on
March 14, 2014 and again with leave of court on June
3, 2014. App. 5, 7, 59-60. On December 8, 2014,
Respondent notified the district court that he had been
granted parole and expected a March 2015 release.
App. 7-8; see also Garrett v. Wexford Health, et al., No.
14-cv-031 (W.D. Pa.) Docket Entry (“Dkt.”) 130 at 1-2.
The magistrate judge assigned to handle all pre-trial
proceedings stayed the case pending his release. App.
8. Respondent was released on May 19, 2015 Dkt. 155
well within the two-year statute of limitations
applicable to his claims. App. 22 n.19.
On January 22, 2016, while no longer incarcerated,
Respondent moved to amend his second amended
complaint. Dkt. 169. The motion cited Rule 15(a)(2) of
the Federal Rules of Civil Procedure, and also stated
that the proposed amendment would include
“Supplemental pleadings.” Dkt. 169 ¶7. Over the
objections of Petitioners and the Pennsylvania
Department of Corrections Respondents (“PA DOC”),3
not have had an exhaustion defense.” Wexford Health CA3 Br. at
10, 15, 22. Petitioner Khatri inaccurately argued below that
Garrett never identified her in any grievance and “never exhausted
his administrative remedies” against her. Khatri CA3 Br. at 14-15
n.7. In fact, in a January 22, 2014 grievance (No. 494481), Garrett
wrote that “Dr. Kathri [sic] . . . [took] me off my psych
medication . . . I been on for over 60 days.” Dkt. 186-2 at 42. That
grievance was fully exhausted on April 17, 2014. Id. at 20.
3

The PA DOC are Debra Younkin, Janet Pearson, Steven Glunt,
Nurse Lori, Nurse Debbie, Nurse Rodger, Nurse John, Nurse
Hanna, Superintendent Cameron, Deputy Superintendent David
Close, Deputy Superintendent Hollinbaugh, Doretta Chencharick,
Joel Barrows, James Morris, Peggy Bauchman, Tracey Hamer,
Captain Brumbaugh, Captain Miller, Lt. Shea, Lt. Horton, Lt.

10
the magistrate judge granted Respondent’s motion on
February 4, 2016, Dkt. 173-79, and the clerk filed his
proposed amendment the next day. App. 8-9. In
addition to his original claims for denial of medical
care, Respondent’s third amended complaint (“TAC”)
raised new claims against prison officials and guards
arising from events that occurred after he filed the
lawsuit. App. 9.4
Respondent brought claims against two groups:
Petitioners5 and the PA DOC. Both groups moved to
dismiss the TAC. App. 10. Petitioners raised a PLRA
exhaustion defense, whereas the PA DOC requested
dismissal solely under Rules 8 and 12. Id. On
September 9, 2016, the district court granted summary
judgment to Petitioners on exhaustion grounds and
gave Respondent a chance to file a final amended
Lewis, Lt. Glass, L.S. Kerns-Barr, F. Nunez, Jack Walmer, M.J.
Barber, Mr. Shetler, Ms. Cogan, Mr. Little, Sgt. Snipes, Sgt.
James, Sgt. Young, Medical Officer London, Medical Officer
Owens, Officer Garvey, and Officer Uncles. Despite not filing an
exhaustion motion below, they have filed a brief in support of the
petition.
4

Respondent’s claims in the TAC were timely, without regard to
relation back principles under Rule 15 and whether measured
against the time he filed his motion to amend or when the TAC
was eventually docketed, because the two-year statute of
limitations was tolled while Respondent pursued his
administrative remedies. See, e.g., Jones v. Unknown D.O.C. Bus
Driver & Transportation Crew, 944 F.3d 478, 481 (3d Cir. 2019).

5

All six Petitioners were categorized “Medical Defendants” below.
Because Khatri was represented by different counsel below,
Wexford Health, Naji, Cutshall, Thornley, and Nagel will be
referred to as the “Wexford Health Petitioners” where arguments
apply only to them.

11
complaint against the PA DOC complying with Rule 8.
App. 69-70. The district court adopted the magistrate
judge’s report and recommendation, which concluded
that Respondent’s “prisoner” status for PLRA purposes
“is judged as of the time he files his original complaint,”
and that “[t]he exhaustion requirement will continue to
apply, even after a prisoner has been released, when
the former prisoner amends a complaint filed while he
was in prison.” App. 77. Respondent filed a fourth
amended complaint (“FAC”) on November 21, 2016.
Dkt. 218. On October 11, 2017, the district court
granted PA DOC’s motion to dismiss the FAC under
Rule 8. App. 57. Respondent filed a notice of appeal,
and the Third Circuit appointed counsel. Dkt. 254,
256.
D. The Decision Below
The Third Circuit vacated the district court’s
decision on both PLRA exhaustion and Rule 8 grounds,
and remanded for further proceedings, in a thorough
and carefully reasoned opinion authored by Chief
Judge Smith. App. 3-4. The court held that the TAC,
the operative complaint against Petitioners, was both
an amended and supplemental complaint under Fed. R.
Civ. P. 15(a) and 15(d). App. 16. The TAC was an
amended complaint because it “presented additional
claims arising out of the events described in the
original complaint, but which [Respondent] had not set
forth in prior pleadings” and a supplemental complaint
because “[i]t also presented new facts and claims that
arose only after the filing of the original complaint.”
Id.

12
The court then explained that the case law applying
Rule 15 makes clear that the Rule exists to prevent an
error or defect in the original pleading from barring a
party “from securing relief on the merits of his claim.”
App. 17. Consistent with that understanding, the court
further explained that the effect of an amended
complaint under Rule 15(a) is that it “becomes the
operative pleading.” Id. Therefore, it is the “status at
the time of the amendment and not at the time of the
original filing that determines whether a statutory
precondition to suit has been satisfied.” App. 18 (citing
Wulf, 226 U.S. at 575). Turning to Rule 15(d), the court
explained that supplementation “can be employed to
allege subsequent facts to cure a deficient pleading.”
App. 19. Applying these settled principles, the court
held that the TAC, an amended and supplemental
complaint under Rule 15, was the operative complaint
and served to “cure the original filing defect” because it
was filed after Respondent was released from
incarceration and no longer subject to the PLRA’s
exhaustion requirement. App. 30.
Finally, the court held that the PLRA’s
administrative exhaustion requirement does not
override the usual operation of Rule 15. Turning to
this Court’s decision in Jones v. Bock for guidance, the
court explained “that the usual procedural rules apply
to PLRA cases unless the PLRA specifies otherwise”
and that “a decision whether to apply the usual
procedural rules should not be guided by ‘perceived
policy concerns.’” App. 28-29 (quoting Bock, 549 U.S. at
212). The court also considered Bock’s determination
that the “boilerplate” language, “[n]o action shall be
brought,” in the exhaustion provision “does not compel

13
a conclusion that the usual procedural rules do not
apply.” App. 35 (citing Bock, 549 U.S. at 220).
Following these teachings from Bock, the Third Circuit
correctly concluded that “the PLRA does not override
the usual operation of Rule 15” because “[t]here is
nothing in the language of § 1997e(a) implicitly or
explicitly mandating a contrary approach.” App. 30.
REASONS FOR DENYING THE PETITION
The decision below is not worthy of review and the
petition should be denied for four essential reasons.
First, the Third Circuit’s holding that a released
prisoner can use Rule 15 to cure an initial pleading
defect faithfully applied the PLRA’s text and this
Court’s precedents. Second, following this Court’s
decision in Jones v. Bock, there is no disagreement
among the Courts of Appeals on this issue. At the very
least, the question warrants further percolation.
Third, this case is an especially poor vehicle for
deciding the question presented because Petitioners
waived critical arguments by failing to raise them
below, and the rule they propose would not have made
any difference here. Fourth, Petitioners’ naked policy
arguments are both overblown and irrelevant here,
where it is undisputed that even on Petitioners’ own
theory Respondent could have voluntarily dismissed
his complaint and re-filed his claims. Thus, even if this
Court were inclined to decide the question presented at
some future time, it should do so in a case where the
arguments were preserved and the decision would
make a practical difference in the case.

14
I.

The Third Circuit Faithfully Applied The
PLRA’s Text And This Court’s Precedents.

Petitioners’ core contention, repeated throughout
their petition, is that the Third Circuit supposedly
created an extra-statutory “exception” to the PLRA’s
exhaustion provision. See, e.g., Pet. i, 1, 2, 16, 19-21,
25. The court did no such thing. Instead, the court
anchored its analysis in settled law—which Petitioners
did not challenge below—that the PLRA’s exhaustion
provision, on its face, does not apply to released
prisoners. Next, faithfully applying this Court’s
decision in Bock, the court properly concluded that the
PLRA’s exhaustion provision does not displace normal
practice under Rule 15. Finally, consistent with this
Court’s longstanding amendment jurisprudence, the
court correctly held that Respondent’s non-prisoner
status when he filed his operative amended and
supplemental complaint was controlling. Far from
creating an unwritten “exception” to the exhaustion
provision, the Third Circuit applied the statute exactly
as written and dutifully followed this Court’s
precedents. None of this warrants review by the Court.
A. The petition is infected with the patently false
premise that the decision below created an “exception”
to the PLRA’s exhaustion requirement. Petitioners
argue that this Court has consistently held “that there
are no exceptions to the requirement that a prisoner
exhaust remedies before filing a federal lawsuit” aside
from the “one textual exception” that “remedies need
not be exhausted if they are not available.” Pet. at 1617, 20 (citing Ross v. Blake, 136 S. Ct. 1850, 1856
(2016); Woodford v. Ngo, 548 U.S. 81, 84-85, 93-95

15
(2006); Porter v. Nussle, 534 U.S. 516, 524 (2002);
Booth v. Churner, 532 U.S. 731, 739 (2001)). But the
cases Petitioners cite all involved the application of the
exhaustion provision to confined prisoners.
By
contrast, Respondent was released from prison when he
filed the operative amended and supplemental
complaint. That distinction was critical to the Third
Circuit’s analysis.
By its terms, the PLRA’s exhaustion requirement
applies only to a “prisoner confined in any jail, prison,
or other correctional facility.” 42 U.S.C. § 1997e(a).
The PLRA defines “prisoner” as “any person
incarcerated or detained in any facility.” Id. § 1997e(h).
There is no disagreement in the lower courts on that
basic statutory point. On the contrary, the Courts of
Appeals have uniformly held that a “plaintiff who seeks
to bring suit about prison life after he has been
released and is no longer a prisoner does not have to
satisfy the PLRA’s exhaustion requirements before
bringing suit.” Norton v. City of Marietta, 432 F.3d
1145, 1150 (10th Cir. 2005); see also Bargher v. White,
928 F.3d 439, 447 (5th Cir. 2019); Lesene v. Doe, 712
F.3d 584, 589 (D.C. Cir. 2013); Talamantes v. Leyva,
575 F.3d 1021, 1023 (9th Cir. 2009); Cofield v. Bowser,
247 F. App’x 413, 414 (4th Cir. 2007); Nerness v.
Johnson, 401 F.3d 874, 876 (8th Cir. 2005); Ahmed v.
Dragovich, 297 F.3d 201, 210 (3d Cir. 2002); Greig v.
Goord, 169 F.3d 165, 167 (2d Cir. 1999); Kerr v.
Puckett, 138 F.3d 321, 323 (7th Cir. 1998).

16
Petitioners themselves conceded this point below.
See Khatri CA3 Br. at 18 n.10; Medical Defs. CA3 Br.
at 24. And they further conceded that Respondent
could have simply filed a new lawsuit once he was
released from custody. Oral Arg. at 26:58-27:15. Thus,
contrary to Petitioners’ central contention, the court of
appeals did not engraft an “exception” on to the statute.
Just the opposite, the court faithfully applied the
bright line Congress drew in the statute itself between
a confined prisoner, who is required to exhaust
administrative remedies, and a released prisoner, who
is not. Because Respondent was no longer a “prisoner”
after his release, he was no longer subject to the
exhaustion provision.
B. Instead of filing a new lawsuit after his release,
Respondent followed the more judicially efficient course
of filing an amended and supplemental complaint
under Rule 15. The Third Circuit was thus called upon
to decide whether the PLRA’s exhaustion provision
prevented Respondent from using Rule 15 rather than
filing anew. Following this Court’s teachings in Bock,
the court correctly held that the PLRA’s exhaustion
provision does not displace the normal operation of
Rule 15 where, as here, the plaintiff has been released.
In Bock, this Court specifically addressed the
PLRA’s interplay with the Federal Rules of Civil
Procedures in striking down certain procedural rules
lower courts had adopted to implement the PLRA’s
exhaustion and judicial screening provisions. 549 U.S.
at 203, 212. The first issue in Bock was whether the
PLRA’s exhaustion provision required a plaintiff to
plead exhaustion or instead operated in accordance

17
with the “usual practice under the Federal Rules,”
which makes exhaustion an affirmative defense. Id. at
212-17. The Court held that the usual practice must
prevail. Rejecting the argument that this would defeat
the PLRA’s purpose, the Court explained that “courts
should generally not depart from the usual practice
under the Federal Rules on the basis of perceived policy
concerns.”
Id. at 212.
Notwithstanding that
“exhaustion was a ‘centerpiece’ of the PLRA,” the Court
explained that the statute’s “silen[ce]” on the issue of
whether exhaustion must be affirmatively pled was
“strong evidence that the usual practice should be
followed.” Id. at 212, 214. And absent a departure
specified in the PLRA itself, the Court concluded that
there is “no reason to suppose that the normal pleading
rules have been altered.” Id. at 214.
The Court also struck down a court-imposed “total
exhaustion rule” providing that an entire complaint
must be dismissed if any single claim was not properly
exhausted. Id. at 209, 219-224. The Court explained
that, under normal pleading practice, “‘[o]nly the bad
claims are dismissed; the complaint as a whole is not.’”
Id. at 221 (quoting Robinson v. Page, 170 F.3d 747,
748-49) (9th Cir. 1999)). Defendants there pointed to
the exhaustion provision’s language stating that “no
action shall be brought” as support for a total
exhaustion rule, but the Court held that this
“boilerplate language” was insufficient textual evidence
that “Congress meant to depart from the norm.” Id.
220-21. The Court further rejected the policy argument
that absent a total exhaustion rule, “inmates will have
little incentive to ensure that they have exhausted all
available administrative remedies before proceeding to

18
court.” Id. at 223. Instead, the Court found the
potential consequences were open to debate, as a rule
requiring dismissal of an entire complaint could
increase litigation if prisoners split claims across
multiple lawsuits and undermine judicial economy by
imposing duplicative work on courts to address nearly
identical complaints refiled post-exhaustion. Id. at
223-24.
The Third Circuit carefully analyzed and correctly
applied Bock to conclude that the PLRA’s exhaustion
provision does not displace the normal pleading
practice under Rule 15. The court explained that “Bock
teaches . . . that the usual procedural rules apply to
PLRA cases unless the PLRA specifies otherwise, and
that a decision about whether to apply the usual
procedural rules should not be guided by ‘perceived
policy concerns.’” App. at 29-30 (quoting Bock, 549 U.S.
at 212). Turning to the statutory text, the court
concluded that “nothing in the PLRA’s administrative
exhaustion provision mentions Rule 15, much less
alters the text or operation of the rule.” App. at 31.
Finally, rejecting Petitioners’ reliance on the “no action
shall be brought” language, the Court explained that
Bock already held that “this language is ‘boilerplate’
and does not compel a conclusion that the usual
procedural rules no longer apply.” App. at 35 (quoting
Bock, 549 U.S. at 220).
Petitioners’ contention that the Third Circuit
misread Bock is incorrect. They argue that Bock struck
down “pleading rules for pro se prisoners that were
more ‘onerous’ than the normal pleading rules,” Pet. at
22, while ignoring that the rule they propose—

19
overriding Rule 15—similarly tilts the playing field
against prisoners. The core holding in Bock is that
normal pleading practices apply absent clear statutory
evidence that Congress intended otherwise. Here,
Petitioners again fail to point to any statutory
evidence—let alone clear evidence—that Congress
intended to deprive released prisoners of access to Rule
15. Their best effort is to grasp onto the language “no
action shall be brought,” which Bock declared is
“boilerplate” and insufficient “to depart from the norm.”
Bock, at 549 U.S. at 221.6 Nor is there any textual
evidence that Congress intended to displace the normal
pleading practices under Rule 15 for released prisoners
when the PLRA exhaustion provision, on its face, does
not even apply to them.
C. Having correctly determined that the PLRA’s
exhaustion provision does not displace Rule 15, the
Court was simply left to apply the Rule. Although
Respondent’s opening brief below devoted six pages to
the operation of Rule 15, Garrett CA3 Br. at 25-30,
Petitioners chose not to present any argument on how
6

Moreover, Petitioners’ logic that “brought” means “initiates” and
thus displaces Rule 15 conflicts with cases construing other
statutes creating preconditions to suit. See, e.g., T Mobile Ne.,
LLC v. City of Wilmington, 913 F.3d 311, 315, 329-30 (holding that
Rule 15(d) allowed a plaintiff to cure a failure to comply with a
statutory precondition that plaintiffs could only “commence an
action” in the thirty days after a zoning board decision); Wilson v.
Westinghouse Elec. Corp., 838 F.2d 286, 289-91 (8th Cir. 1988)
(holding that a plaintiff who prematurely sued in violation of a
statute providing that “[n]o civil action may be commenced” before
a 60-day post-grievance waiting period could use Rule 15(d) to cure
his mistake, despite arguments that doing so would undermine the
purpose behind the precondition).

20
Rule 15’s normal principles apply in these
circumstances. Rather, their opposition briefs focused
solely on the threshold issue of whether the PLRA’s
exhaustion provision displaced Rule 15, making mostly
policy arguments.
The Third Circuit’s decision was a straightforward
application of Rule 15. See App. at 16-23. The court
explained that Rule 15(a) “embodies the federal courts’
policy of liberal pleading amendment by ensuring that
an inadvertent error in, or omission from, an original
pleading will not preclude a party from securing relief
on the merits of his claim.” App. at 17. Under Rule
15(a), amended complaints render the original
complaint non-functional. 6 C. Wright & A. Miller,
Federal Practice and Procedure § 1476 (3d ed. 2019).
Separately, Rule 15(d) allows a party to “serve a
supplemental pleading setting out any transaction,
occurrence, or event that happened after the date of the
pleading to be supplemented.” Fed. R. Civ. P. 15(d).
The Rule itself provides that supplementation may be
permitted “even though the original pleading is
defective in stating a claim or defense.” Id.
Consistent with those fundamental principles and
well-established law, the Third Circuit explained that
“[i]t has long been the rule that where a party’s status
determines a statute’s applicability, it is his status at
the time of the amendment and not at the time of the
original filing that determines whether a statutory
precondition to suit has been satisfied.” App. at 18.
Likewise, as the court further explained,
“[s]upplementation under Rule 15(d) . . . can be
employed to allege subsequent facts to cure a pleading

21
deficiency.” App. at 19 (citing Mathews v. Diaz, 426
U.S. 67, 75, 75 n.8 (1976)).
These precepts are deeply embedded in this Court’s
jurisprudence. Over 100 years ago, in Missouri, K. &
T. Ry. Co. v. Wulf, the Court held that where a statute
permitted claims only by the personal representative of
an estate, the plaintiff’s amendment, adding the fact
that she had been named personal representative,
cured the defect in her initial complaint, which was
brought in her individual capacity. 226 U.S. 570, 57476 (1913). The Court again applied this principle in
Mathews v. Diaz, holding that a plaintiff who failed to
file a social security claim before suing—a
“nonwaivable” statutory precondition—could cure the
mistake by submitting a post-filing social security
claim and then using Rule 15(d) to show compliance.
426 U.S. 67, 75, 75 n.8 (1976). As the Court explained,
“[w]e have little difficulty” finding that a Rule 15(d)
supplement “would have eliminated [plaintiff’s]
jurisdictional issue.” Id. at 75.7
These principles are also reflected in the Rule itself.
As the advisory committee explained, the language
permitting “supplementation even though the original
pleading is defective in stating a claim or defense” was
7

PA DOC cite McNeil v. United States, 508 U.S. 106 (1993), to
suggest that Rule 15 cannot cure a PLRA exhaustion defect.
PA DOC Br. at 9-10. But McNeil is not a PLRA case. Rather,
McNeil involved the Federal Tort Claims Act, which includes an
exhaustion requirement that applies irrespective of a plaintiff’s
status. 508 U.S. at 107. That is materially different from the
PLRA’s exhaustion requirement, which applies only if the plaintiff
is confined in prison, and can thus be cured through an amended
or supplemental complaint under Rule 15.

22
added to reject a “rigid and formalistic view” that
“needlessly remitted [plaintiffs] to the difficulties of
commencing a new action even though [subsequent
events] have made clear the right to relief.” Fed. R.
Civ. P. 15(d) advisory committee’s note to 1963
amendment.
Applying these settled principles, the Third Circuit
correctly concluded that the “TAC, as the operative
amended pleading, superseded [Respondent’s] prior
complaints.” App. at 22. At that time, “Garrett was no
longer a prisoner and therefore was not subject to the
PLRA’s administrative exhaustion requirement.” Id.
Accordingly, “his change in status (i.e., his release)
operates to cure the original filing defect (i.e., his
failure to exhaust administrative remedies).” App. at
30. The Third Circuit’s analysis is correct, faithful to
the statutory text, and entirely consistent with this
Court’s longstanding precedents. Nothing about the
court’s decision warrants review.
II.

The Split Alleged By Petitioners Is Illusory.

Petitioners’ argument for a circuit split is similarly
overstated. Petitioners contend that “[f]ederal courts
are deeply divided over whether the PLRA requires
dismissal of unexhausted claims if a prisoner is
released while his suit is pending.” Pet. at 16. In fact,
since this Court’s decision in Bock clarifying the legal
framework for analyzing the PLRA’s interplay with the
Federal Rule of Civil Procedure, only two Courts of
Appeals—the Third Circuit (in this case) and the Ninth
Circuit—have squarely addressed whether a released
prisoner’s status at the time of amendment controls for
exhaustion purposes. And both courts correctly held

23
that the plaintiff’s status at the time of amendment is
controlling. Although Petitioners attempt to fabricate
a post-Bock split, none of the cases they cite analyzed
the normal operation of Rule 15 to a post-release
amendment, or whether that operation is somehow
displaced by the PLRA’s exhaustion provision. Because
it remains to be seen whether any split will emerge,
review by this Court would be premature.
A. Like the Third Circuit below, the Ninth Circuit,
in Jackson v. Fong, held that a “plaintiff who was in
custody at the time he initiated his suit but was free
when he filed his amended operative complaint is not
a ‘prisoner’ subject to a PLRA exhaustion defense.” 870
F.3d 928, 931 (9th Cir. 2017). The Ninth’s Circuit’s
reasoning closely tracks the analysis below. Relying on
Bock, the Ninth Circuit concluded that (i) the PLRA’s
exhaustion provision does not displace Rule 15(d),
(ii) the supplemental complaint was the operative
pleading, and (iii) the plaintiff’s non-prisoner status
when he filed the operative complaint controlled. Id. at
933-35. And, like the court below, the Ninth Circuit
questioned the continued vitality of the handful of preBock decisions touching on this issue, specifically
noting that “[o]ur sister circuits might well decide these
cases differently today.” Id. at 935 n.3; see also App. at
37-38 (distinguishing pre-Bock decision).
B. Attempting to manufacture a split, Petitioners
argue that the Fifth, Sixth, and Eleventh Circuits “hold
that a prisoner’s subsequent release does not relieve
him of the statutory requirement to exhaust
administrative remedies before filing suit.”
See
Bargher v. White, 928 F.3d 439, 447-48 (5th Cir. 2019);

24
Smith v. Terry, 491 F. App’x 81, 83-84 (11th Cir. 2012);
Cox v. Mayer, 332 F.3d 422, 427-28 (6th Cir. 2003).”
Pet. at 2. But Petitioners tellingly never cited any of
those cases below, and for good reason: none involved
a plaintiff who actually filed a post-release amendment.
The courts therefore neither confronted nor decided the
question presented.
Petitioners’ outsized reliance on Smith is especially
misplaced because it is an unreported, non-precedential
decision. Petitioners also misstate the facts. Contrary
to Petitioners’ argument, the plaintiff did not file his
supplemental complaint after his release, Pet. at 12;
rather, he was still confined when he filed it.8 The
court thus had no occasion to decide the question
presented in this case.
In any event, Smith relied exclusively on a pre-Bock
decision, Harris v. Garner, 216 F.3d 970 (11th Cir.
2000). The issue in Harris was whether the PLRA’s
physical injury requirement in Section 1997e(e) applied
to a plaintiff’s post-release amended complaint. A
sharply divided court, sitting en banc, held that the
language “[n]o Federal civil action may be brought”
overrode the normal pleading practice under Rule 15 as
it related to the plaintiffs’ change in confinement
status. Id. at 972, 980-84. Bock, however, later
reached the opposite conclusion, holding that such
“boilerplate” language was insufficient to displace the
normal operation of the Federal Rules of Civil
Procedure. Bock, 549 U.S. at 220-21. Presaging Bock’s
warnings “that courts should generally not depart from
8

The Supplemental Complaint continues to reflect a prison
address. Smith v. Terry, No. 10-cv-024 (M.D. Ga.), Dkt. 17 at 9.

25
the usual practice under the Federal Rules on the basis
of perceived policy concerns,” 549 U.S. at 212, the
dissent in Harris criticized the majority for getting
“carried away by considerations of policy,” 216 F.3d at
999 n.13. The Eleventh Circuit has yet to revisit
Harris in light of Bock, and its non-precedential
decision in Smith fails to mention, much less grapple
with, Bock’s impact.
Petitioners’ reliance on Bargher v. White, 928 F.3d
438 (5th Cir. 2019), is similarly misplaced. Although
the plaintiff was released from prison in Bargher,
unlike Respondent, he never filed a post-release
amended or supplemental complaint. Also, unlike
Respondent, he did not exhaust his administrative
remedies. Id. at 447. Accordingly, the Bargher court
did not decide the applicability of Rule 15 in a postrelease or post-exhaustion setting.9
Petitioners’ reliance on Cox v. Mayer, 332 F.3d 422
(6th Cir. 2003), also misses the mark. First, Cox is a
pre-Bock decision that relies entirely on the Eleventh
Circuit’s pre-Bock decision in Harris. Cox, 332 F.3d at
9

Petitioners also misplace reliance on Williams v. Henagan, 595
F.3d 610 (5th Cir. 2010). There, the plaintiff argued solely that his
release from prison rendered prior grievances moot under a
particular state’s grievance laws and therefore he should be
deemed to have fully exhausted his administrative remedies. Id.
at 618-19. The court rejected this argument based on the language
of the applicable state grievance law. Id. The court did not
analyze, let alone decide, whether the PLRA displaces Rule 15 or
whether under Rule 15 a plaintiff’s status at the time of
amendment or supplementation is controlling because those issues
were never raised. After Bock, those issues remain unaddressed
in the Fifth Circuit.

26
424 n.1. Second, the court’s two sentence discussion of
Rule 15(d) is plainly dicta because, as the court
observed, the plaintiff never moved to supplement his
complaint post-release, he “did not raise the issue
before the district court, nor did the district court cite
Rule 15(d) as justification for its ruling,” and thus the
issue “has been waived.” Id. at 428. And post-Bock,
the Sixth Circuit specifically stated that “[t]he Cox
panel’s dicta do not bind us.” Mattox v. Edelman, 851
F.3d 583, 593 (6th Cir. 2017). Mattox involved a
supplemental complaint filed by a confined prisoner to
add new claims. Relying on Bock, the Sixth Circuit
held that the PLRA’s exhaustion provision did not
displace Rule 15(d). Id. at 591-93.10 Thus, if anything,
the case law in the Sixth Circuit only highlights that
this issue would benefit from further percolation postBock.
Finally, the PA DOC, who did not even file an
exhaustion motion, suggest that the decision below
conflicts with May v. Segovia, 929 F.3d 1223 (10th Cir.
2019). But Petitioners themselves make no such claim.
See Pet. 15 n.4 (noting the Tenth Circuit “suggested
without deciding”). The issue decided in May was
whether an amended complaint—tendered while the
plaintiff was still in prison but filed after his
release—was subject to the exhaustion requirement.
929 F.3d at 1126. The Tenth Circuit decided that the
claims were “brought” for exhaustion purposes when
10

Relying on Bock, the Sixth Circuit has also overruled a pre-Bock
decision holding that the language “shall dismiss” in the PLRA’s
screening requirement displaced Rule 15(a). LaFountain v. Harry,
716 F.3d 944, 951 (6th Cir. 2013) (overruling McGore v.
Wrigglesworth, 114 F.3d 601 (6th Cir. 1997)).

27
the plaintiff tendered his complaint (while still
confined). Id. at 1232-33. To the extent that the PA
DOC argue that May’s discussion of the normal
operation of Rule 15 differs from that of the court
below, PA DOC Br. 14-16, Petitioners themselves did
not raise those arguments in their petition, and they
failed to make any arguments below regarding the
normal operation of Rule 15. Thus, they have waived
those arguments.11
At bottom, Petitioners’ alleged split does not exist.
The only decisions that arguably conflict with the Third
Circuit’s decision here were decided pre-Bock and
relied on reasoning rejected by this Court in Bock. And
the only other decision to squarely address the question
after Bock reached the same conclusion as the Third
Circuit. There is thus no good reason to grant the
petition and every reason to allow the lower courts
more time to examine the question in light of Bock.
III.

This Case Is A Poor Vehicle For Deciding
The Question Presented.

Certiorari should be denied for the additional
reason that the case, as Petitioners and their
supporters present it to this Court, bears no
resemblance to their litigation of the case below.
Indeed, this is an especially poor vehicle for deciding
the question presented in the certiorari petition
because Petitioners and PA DOC failed to preserve the
very arguments they now present to this Court.
11

Petitioners and the PA DOC agree that the Seventh Circuit
cases they cite do not squarely decide the question presented. Pet.
13 n.3; PA DOC Br. 15-16.

28
At oral argument below, counsel for five of the six
Petitioners explicitly conceded that the PLRA does not
bar plaintiffs from curing a failure to exhaust through
a later Rule 15 amendment. In response to a question
from Judge Greenaway, counsel for the Wexford Health
Petitioners expressly stated that he would “absolutely
agree . . . that under the appropriate circumstances . . .
an amendment could be permitted . . . in the district
court’s discretion to remedy a problem like failure to
exhaust.”12 Oral Arg. at 26:30-26:52.13 This express
concession should bar those Petitioners from
presenting precisely the opposite argument to this
Court now. See, e.g., 14 Penn Plaza LLC v. Pyett, 556
U.S. 247, 272–73 (2009). By failing to inform the Court
of their waiver, the Wexford Health Petitioners ask
that this Court grant merits review in a case with
problems that would normally be subject to dismissal
as improvidently granted.
See, e.g., Adarand
Constructors, Inc. v. Mineta, 534 U.S. 103, 108-111
(2001).

12

Oral argument audio available at https://www2.ca3.uscourts.gov/
oralargument/audio/17-3480Garrettv.WexfordHealthetal.mp3.
13

Counsel’s fallback argument was that because Respondent did
not seek leave to amend for the express purpose of curing his
procedural defects—and because his change in status was not
expressly stated in his TAC (notwithstanding that the district
court and the parties “all knew” of Respondent’s release)—the
amended complaint could not cure his previous failure to exhaust.
Oral Arg. 26:52-27:17. The Third circuit correctly rejected this
fallback argument. App. 22 n.20.

29
Adding to the significant waiver issue is the fact
that Petitioners all failed to respond to Respondent’s
arguments below regarding the normal operation of
Rule 15. Respondent devoted an entire section of his
brief to arguing that an amended complaint supersedes
the original complaint and that a plaintiff’s status at
the time of amendment or supplementation—as
opposed to the time of an original complaint—
determines whether a statutory precondition to suit
applies. See Garrett CA3 Br. at 25-30. Petitioners
offered no briefing or argument to the Third Circuit on
those critical issues. See Garrett CA3 Reply at 1-2.
For their part, PA DOC now belatedly seek to raise
arguments challenging the Third Circuit’s application
of Rule 15. PA DOC Br. at 14-16. But PA DOC did not
move on exhaustion grounds at all; instead, they
argued for dismissal solely on Rule 8 grounds. In any
event, Petitioners themselves do not advance these
late-breaking arguments regarding the normal
operation of Rule 15 in their petition. Because the
“argument was not raised below, it is waived.”
Sprietsma v. Mercury Marine, 537 U.S. 51, 56 n.4
(2002). Rather than reward the gamesmanship of
Petitioners and their supporters, this Court should
deny certiorari and take up this issue (if at all) in a
case where the question was fully litigated below.
Finally, this is an especially poor vehicle for
deciding the question presented because a ruling in
Petitioners’ favor would have made no practical
difference in this case. By the time that respondent
filed the operative complaint he had fully exhausted his
claims against Petitioners and had been released from

30
prison.14 As a result, all of the benefits of the grievance
process inured before the district court undertook to
adjudicate Respondent’s claims in the TAC. And, at
that point, the statute of limitations on his claims had
not run. Thus, Respondent plainly could have taken
what Petitioners admit was an available, alternative
procedural course: dismiss his complaint without
prejudice and refile a new complaint following
exhaustion. If this Court wishes to take up the
question presented, it should exercise its discretion to
do so in a case where the issue was both preserved
below and would have made a difference to the result.
IV.

Petitioners’ Policy Arguments
Overblown And Irrelevant.

Are

Finally, Petitioners’ reliance on bald policy
arguments is both overblown and insufficient to
warrant certiorari. The certiorari petition and the
briefs filed in support of it howl that the Third Circuit’s
decision will gut the PLRA’s exhaustion requirement.
But Chief Judge Smith’s narrow, carefully reasoned
opinion will do nothing of the sort. Many of the policy
concerns Petitioners identify exist independent of the
Third Circuit’s decision. And, at bottom, the concerns
that Petitioners and their supporters urge on this
Court amount to precisely the sort of extra-textual
reasoning that this Court rejected in Jones v. Bock.
Petitioners complain that Respondent’s actions
caused delay in reaching the merits of his claims and
14

Petitioners’ contention that “Garrett has now pursued
unexhausted claims for over five years,” Pet. 24, is plainly
incorrect. See supra note 2.

31
argue that the intent of Congress in passing the PLRA
was to reduce the number of prisoner cases “filed.” Pet.
19. But Petitioners concede (as they must) that
Respondent could have dismissed his claims without
prejudice and filed a new complaint once he had
exhausted his claims. That course would have only
caused more delay by requiring the case to be fully reinitiated without any other practical difference to the
proceedings. That sort of unnecessary process is
precisely what Rule 15 was designed to prevent. And
there is no merit to Petitioners’ thinly veiled innuendo
that the PLRA should be applied whenever possible to
ensure that plaintiffs lose in prison litigation.
“[A]dherence to the PLRA’s text runs both ways: The
same principle applies regardless of whether it benefits
the inmate or the prison.” Ross, 136 S. Ct. at 1857 n.1.
Indeed, contrary to Petitioners’ heated rhetoric,
there was no effort to “defeat by delay” on this record.
See Pet. 24; App. 16 n.16 (admonishing that “this case
may have been able to be resolved in a more timely and
efficient manner” had the district court simply
dismissed the complaint without prejudice in the first
instance). In fact, the Wexford Health Petitioners
conceded the opposite below. See Wexford Health CA3
Br. at 26 (“[T]his list of some of the events which
prolonged the settling of the initial pleadings is not
provided to suggest that Mr. Garrett was engaged in
some extraordinary effort of delay—in fact, just the
opposite. For a pro se prisoner case, nothing about this
development was atypical.”). Respondent’s use of Rule
15 “did not benefit him strategically, but did promote
judicial economy,” and “it advances no purpose of the
PLRA” to dismiss Respondent’s claims solely because

32
he chose the more efficient route. Jackson, 870 F.3d at
936-37.15
Finally, many of Petitioners’ policy concerns and
those of their amici are premised on the atextual notion
that the PLRA’s exhaustion requirement applies to all
suits related to prison conditions. But, in fact, the law
as written applies only to such claims brought by
confined prisoners. Thus, Petitioners and amici are
simply wrong to suggest that the decision below creates
a new rule that allows prisoners to avoid the
exhaustion requirement by filing suit after they are
released. Pet. 23-25; Amici 6. As discussed above,
long before this case, the lower courts were in
unanimous agreement that the PLRA exhaustion
requirement—by its plain language—does not apply to
released prisoners. Petitioners never challenged those
precedents below, and they do not challenge them here.
Nor does their policy concern even apply to Respondent
who had fully exhausted his administrative remedies
with respect to his claims against Petitioners before his
release.
Thus, to the extent the Court might in the future
entertain an argument that, despite its plain text, the
PLRA exhaustion requirement could bar claims
15

At oral argument, counsel for the Wexford Health Petitioners
acknowledged the deficiencies in the policy arguments Petitioners
now attempt to advance—conceding that Garrett’s claims against
his clients were exhausted prior to the filing of the TAC, and that
Garrett would have been able to file a new lawsuit. Oral Arg.
21:55-22:22. Indeed, counsel stated that had Garrett sought leave
to amend his complaint for the express purpose of curing his
failure to exhaust, counsel would likely not even have objected.
Oral Arg. 26:30-27:17.

33
brought by former prisoners who did not file suit until
after their release from custody, that argument is not
available on this record. It was not preserved below,
and it has not been offered as a question presented in
the certiorari petition. On the contrary, Petitioners’
briefing before the Third Circuit expressly conceded
that the statute does not apply to claims brought by
released prisoners. See Khatri CA3 Br. at 18 n.10;
Medical Defs. CA3 Br. at 24.
And that
acknowledgement, which is understandable in light of
the unanimous view among the Courts of Appeals,
makes Petitioners’ and amici’s arguments that the
Third Circuit’s decision will encourage prisoners to
await release to file their lawsuits instead of pursuing
administrative remedies a complete and total nonsequitur.
CONCLUSION
This Court should deny the petition for a writ of
certiorari.
Respectfully submitted,
STUART T. STEINBERG
CORY A. WARD
JUSTIN M. ROMEO
NOAH S. BECKER
DECHERT LLP
2929 Arch Street
Philadelphia, PA 19104

MICHAEL H. MCGINLEY
Counsel of Record
DECHERT LLP
1900 K Street, NW
Washington, DC 20006
(202) 261-3300
Michael.McGinley@dechert.com

Counsel for Respondent Kareem Garrett
March 11, 2020

